Loa
|

OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B Bteks contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

AMANDA RENFROE, INDIVIDUALLY, AS THE
WIDOW OF MICHAEL RENFROE, DECEASED;
AMANDA RENFROE, AS THE NATURAL MOTHER
AND ADULT NEXT FRIEND OF S.W.R., A MINOR,
WHO ARE THE SOLE HEIRS-AT-LAW AND
WRONGFUL DEATH BENEFICIARIES OF
MICHAEL WAYNE RENFROE; THE ESTATE
OF MICHAEL WAYNE RENFROE; AND
AMANDA RENFROE, IN HER CAPACITY AS
THE ADMINISTRATRIX OF THE ESTATE
OF MICHAEL WAYNE RENFROE,
Petitioners,

v.

ROBERT DENVER PARKER AND
SHERIFF RANDALL TUCKER, IN THEIR
INDIVIDUAL AND OFFICIAL CAPACITIES,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7650 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of March, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska . & Chih,
‘ RENEE J. GOSS 0. ( decd rea :

My Comm. Exp. September 5, 2023
Affiant 40632

 

Notary Public
